TN

Q@OCKLE

2311 Douglas Street Le g al Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-267

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

v.
AGNES MORRISSEY-BERRU,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 7th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE ALASKA AND SIXTEEN OTHER
STATES IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KEVIN G. CLARKSON
Attorney General of Alaska

DARIO BORGHESAN
KATHERINE DEMAREST
Counsel of Record

ANNA JAY

1031 West Fourth Avenue
Anchorage, Alaska 99501
(907) 269-5100
kate.demarest@alaska.gov

Subscribed and sworn to before me this 7th day of February, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska é Le ,
My Commission Expires Nov 24, 2020 i,

Notary Public Affiant 39377

 

 
Eric Christopher Rassbach

Attorney for Petitioner Our Lady of Guadalupe School
The Becket Fund for Religious Liberty

1200 New Hampshire Avenue, NW

Suite 700

Washington, DC 20036

(202) 955-0095

erassbach@becketlaw.org

Joseph M. Lovretovich

Cathryn Fund

Andrew Pletcher

Attorneys for Respondent Agnes Morrissey-Berru
JML Law

5855 Topanga Canyon Boulevard
Suite 300

Woodland Hills, CA 91367

(818) 610-8800

JML@jmllaw.com
Cathryn@jmllaw.com
Andrew@jmllaw.com
